ROPES & GRAY LLP
2099 Pennsylvania Avenue NW
WASHINGTON, DC 20006
WWW.ROPESGRAY.COM

May 28, 2021
BY ELECTRONIC FILING

Douglas Hallward-Driemeier
T +1 202 508 4776
Douglas.Hallward-Driemeier@ropesgray.com

The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

TCL Communication Technology Holdings, Limited, TCT Mobile Limited, TCT Mobile
Limited, TCT Mobile (US) Inc. v. Godo Kaisha IP Bridge 1, No. 20-1545
Respondent’s Opposition to Request to Delay Distribution of the Petition for Writ of
Certiorari

Dear Mr. Harris:
On behalf of Respondent Godo Kaisha IP Bridge 1, we write to oppose the Petitioner’s Request to
Delay Distribution of the Petition for Writ of Certiorari.
Petitioner’s Request is unwarranted and would significantly delay the Court’s consideration of the
Petition. Respondent filed its Brief in Opposition as quickly as it could, on May 24, 2021, almost two
weeks before the response was due, so as to ensure that the Petition would be distributed on June 8 and
considered by the Court at its June 24 conference, before the summer recess. In these circumstances,
Petitioner’s seemingly innocuous request for a week’s delay in the distribution date—to June 16—
would, in fact, postpone consideration of the Petition by three months. This unnecessary delay will
prejudice IP Bridge, which has already been unable to collect on the damages from TCL’s infringement
for multiple years.
There is no warrant for such a delay. In Petitioner’s letter regarding its requested extension, Petitioner
simply references, as it had in an earlier email to Respondent, “the heavy press of other matters” and
a vague reference to “logistical and other difficulties related to COVID-19.” Petitioner’s counsel’s
“press of other matters” has never been an excuse for delaying distribution, and nothing in the Court’s
March 19, 2020 and April 15, 2020 COVID-19 Orders changed that. While the March 19 and April
15, 2020 Orders do permit a Petitioner to seek a short delay in distribution, that is not a matter of right,
and does not create a catch-all authority, but is instead limited to where additional time is necessary
“due to difficulties relating to COVID-19.” Petitioner has not identified any specific COVID-19
related difficulties, and it is hard to imagine what those might be now that Washington D.C. is in Phase
2 of reopening. 1 Respondents’ own ability to file its (longer) Brief in Opposition two weeks earlier

1

https://coronavirus.dc.gov/phasetwo.

ROPES & GRAY LLP
2099 Pennsylvania Avenue NW
WASHINGTON, DC 20006
WWW.ROPESGRAY.COM

than the rules required demonstrates that there are few if any remaining logistical difficulties due to
COVID-19 that would affect the drafting and submission of a short Reply.
Moreover, Petitioner has the option to take almost the full extension it seeks without any need to delay
the Petition’s distribution. Petitioner can file the Reply on June 8, a day later than the typical 14-day
window for replies, and still have the Reply circulated together with the Petition and Opposition.
Alternatively, Petitioner could take the full work week and file on Friday, June 11, and the Reply
would be circulated immediately, nearly two weeks before the Conference date. All of these options
are fully within Petitioner’s control. Petitioner chose, as was its right, to take the full 150 days allowed
under the COVID Orders to file its Petition. Had it wished to ensure that it could seek an extra week
under those Orders for its Reply without prejudicing Respondent by delaying the Conference until
after the summer, Petitioner could have filed the Petition earlier, but it chose not to do so.
Finally, we note that the Petition does not present a particularly complicated issue, nor does the short,
20-page Opposition raise new points that require additional time. The Federal Circuit decision on
appeal here was unanimous, applying precedent settled nearly two decades ago, and the Federal Circuit
denied en banc review per curiam, without dissent. Further, the time for any potential amici to give
notice of their intent to file has passed without any amici indicating an interest. In short, there is
nothing unique about this Petition that suggests an extraordinary extension, delaying action on the
Petition by three months, is warranted.
If the Clerk believes that a teleconference to discuss Petitioner’s concerns would be helpful, we would
be happy to join such a call.
Sincerely,
/s/ Douglas Hallward-Driemeier
Douglas Hallward-Driemeier
cc: All counsel of record
Service list attached
SERVICE LIST:
Lionel M. Lavenue
FINNEGAN, HENDERSON, FARABOW, GARRETT & DUNNER, LLP
1875 Explorer Street
Suite 800
Reston, VA 20190
(571) 203-2750
Lionel.lavenue@finnegan.com
Counsel for Petitioners

